App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JW GAMING DEVELOPMENT, LLC, a California
limited liability company,
Plaintiff-Appellee,
v.

No. 18-17008
D.C. No.
3:18-cv-02669-WHO
MEMORANDUM*
(Filed Oct. 2, 2019)

ANGELA JAMES; LEONA
L. WILLIAMS; LENORA
STEELE; KATHY
STALLWORTH; MICHELLE
CAMPBELL; JULIAN J.
MALDONADO; DONALD
WILLIAMS; VERONICA
TIMBERLAKE; CASSANDRA
STEELE; JASON E. RUNNING
BEAR STEELE; ANDREW
STEVENSON; PINOLEVILLE
POMO NATION, a federallyrecognized Indian tribe,
Defendants-Appellants.
Appeal from the United States District Court
for the Northern District of California
William Horsley Orrick, District Judge, Presiding

* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.

App. 2
Argued and Submitted August 7, 2019
San Francisco, California
Before: O’SCANNLAIN, SILER,** and NGUYEN,
Circuit Judges.
Several individual defendants (collectively the
“tribal defendants”) appeal the district court’s order
denying their motion to dismiss the claims against
them on the basis of sovereign immunity. Because the
facts are known to the parties, we repeat them only as
necessary to explain our decision.
The district court did not err in denying the tribal
defendants’ motion to dismiss the fraud and RICO
claims that JW Gaming Development, LLC (“JW Gaming”) filed against them. Under our “remedy-focused
analysis,” the Tribe is not the real party in interest
with respect to such claims. Maxwell v. County of San
Diego, 708 F.3d 1075, 1088 (9th Cir. 2013). The claims
are explicitly alleged against the tribal defendants in
their individual capacities, and JW Gaming seeks to
recover only monetary damages on such claims. If
JW Gaming prevails on its claims against the tribal
defendants, only they personally—and not the Tribe—
will be bound by the judgment. Any relief ordered on
the claims alleged against the tribal defendants will
not, as a matter of law, “expend itself on the public
treasury or domain,” will not “interfere with the
[Tribe’s] public administration,” and will not “restrain
** The Honorable Eugene E. Siler, United States Circuit
Judge for the U.S. Court of Appeals for the Sixth Circuit, sitting
by designation.

App. 3
the [Tribe] from acting, or . . . compel it to act.” Id. (internal quotation marks omitted). Accordingly, such
claims are not shielded by the Tribe’s sovereign immunity. See Lewis v. Clarke, 137 S. Ct. 1285, 1290–92
(2017); Pistor v. Garcia, 791 F.3d 1104, 1112–14 (9th
Cir. 2015); Maxwell, 708 F.3d at 1088–90.1
AFFIRMED.

1
This is true even though the tribal defendants have been
sued for actions they allegedly took in the course of their official
duties and even if the Tribe chooses to indemnify the tribal defendants for any adverse judgment against them. See Lewis, 137
S. Ct. at 1288, 1292–94; Pistor, 791 F.3d at 1112; Maxwell, 708
F.3d at 1088–90.

App. 4
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
JW GAMING DEVELOPMENT, LLC,
Plaintiff,
v.
ANGELA JAMES, et al.,
Defendants.

Case No.
3:18-cv-02669-WHO
ORDER DENYING
DEFENDANTS’
MOTION TO DISMISS
AND DENYING
DEFENDANTS’
MOTION TO STRIKE
Re: Dkt. Nos. 6, 7, 15, 23
(Filed Oct. 5, 2018)

INTRODUCTION
From 2008 to 2011, Plaintiff JW Gaming, LLC
(“JW Gaming”) invested $5,380,000 in the Pinoleville
Pomo Nation’s casino project, believing that it was
matching an investment in the same amount from the
Canales Group, LLC (“the Canales Group”). JW Gaming now alleges that leaders and members of both
Pinoleville Pomo Nation (“the Tribe”) and the Canales
Group were part of a years-long scheme to fraudulently induce its investment and to conceal that fraud.
It brings suit alleging breach of contract, fraud, and
violation of the Racketeer Influenced and Corrupt
Organizations Act (“RICO”), 18 U.S.C. §§ 1961–68.
Before me is a motion to dismiss brought by the
Tribal Defendants (Angela James, Leona Williams,
Lenora Steele, Kathy Stallworth, Michelle Campbell,

App. 5
Julia Maldonado, Donald Williams, Veronica Timberlake, Cassandra Steele, Jason Edward Running Bear
Steele, and Andrew Stevenson) and joined the Canales
Defendants (Michael Canales, Melissa Canales, Kelly
Canales, Lori Canales, and the Canales Group) and
John Tang. In addition, the Tribal Entity Defendants
(the Pinoleville Gaming Commission, the Pinoleville
Business Board, and Pinoleville Economic Development, LLC) move to dismiss the contract claim. Because the Tribal Defendants are not entitled to
sovereign immunity and the other claims are properly
pleaded, I deny the motions.
BACKGROUND
JW Gaming brings this suit against the Tribe,1
four tribal entities, eleven tribal leaders and members,
the Canales Group, and five Canales Group leaders
and members. See Compl. [Dkt. No. 1-1] ¶¶ 8–93. It
asserts a breach of contract claim against the Tribe
and Tribal Entity Defendants and alleges that the remaining defendants engaged in a scheme to fraudulently
solicit a $5,380,000.00 investment in the Pinoleville
Casino Project (“the Casino Project”). Id. ¶ 104. In
emails from July 2008 to January 2009, Michael
Canales and John Tang (also of the Canales Group)
made repeated references to the $5 million investment
that the Canales Group had made in the Casino Project, and James Winner (who would later form JW
1

The Tribe is federally recognized and headquartered in
California. Compl. ¶ 8.

App. 6
Gaming), agreed to “match” that investment. Id.
¶¶ 107–18. In an attachment to a January 30, 2009
email, John Tang provided JW Gaming with a copy of
a promissory note (“the 2008 Canales Note”) as proof
of the Group’s investment. Id. ¶¶ 118–20. Leona Williams, the chairperson of the tribal council and one of
the Tribal Defendants, had signed the note, and Michael and Melissa Canales were included on the email.
Id. ¶¶ 35, 121.
From August 2008 to April 2011, JW Gaming
made a total of $5,380,000.00 in payments to the Tribe,
the Canales Group, and John Tang. Id. ¶¶ 115–17,
163–64. Tribal Defendants Angela James and Leona
Williams were the authorized signers on two banks
where JW Gaming made $5 million in deposits. Id.
¶¶ 167–74.
JW Gaming later learned that the Canales Group
had never made any investments in the Casino Project.2 Id. ¶ 123. It alleges that the defendants used
its payments for personal purposes, including, for example, a $95,000 transfer to a romantic partner, a
$400,000 transfer to an organization over which two
defendants have ownership interests, and a $1 million
transfer to other defendants. See id. ¶¶ 16–23, 170,
174, 526, 555, Ex. 17.
In early 2011, JW Gaming requested that the
Tribe provide an accounting of its use of the company’s
2

JW Gaming learned this information from Forster-Gill,
Inc., which previously sued some of the defendants in this case.
See Oppo. to Mot. to Dismiss 13.

App. 7
investment. Id. ¶ 176. An accounting firm prepared the
report (“the Accounting Report”), which was addressed
to Leona Williams, and emailed it to her and Michael
Canales in November 2011. Id. ¶¶ 179–82. Melissa
Canales sent it to JW Gaming two days later. Id.
¶¶ 176–79. Subsequently, JW Gaming exchanged several emails about the Accounting Report with Michael
Canales and Melissa Canales, some of which made reference to or were copied to Leona Williams. See id.
¶¶ 189–205.
From December 2011 to April 2012, JW Gaming,
tribal leadership, and the Canales Group engaged in
negotiations, mostly via email, regarding the future of
the Casino Project. Id. ¶¶ 206–36. In a promissory note
dated July 10, 2012 (“the Note”), “The Tribe and/or the
Gaming Authority” promised to repay JW Gaming its
$5,380,000.00 investment plus interest. Id. ¶ 239, Ex.
26 [Dkt. No. 1-4] 1. Tribal Defendants Leona Williams
and Angela James signed the note, which included a
limited waiver of sovereign immunity. Id. ¶¶ 240, 255,
Ex. 26 3. The Tribal Defendants and the Canales
Group represented that they were entering into a separate note (“the 2012 Canales note”) regarding the
Canales investment. Id. ¶¶ 368–74.
After learning about the alleged fraud, JW Gaming brought suit in Mendocino County Superior Court
on March 1, 2018. Defendants removed it to federal
court on May 7, 2018. Notice of Removal [Dkt. No. 1].

App. 8
Before me is a motion to dismiss3 brought by the Tribal
Defendants and the Tribal Entity Defendants and
joined by the Canales Defendants and John Tang.
LEGAL STANDARD
I.

RULE 12(b)(1) MOTION TO DISMISS

A motion to dismiss under Rule 12(b)(1) of the
Federal Rules of Civil Procedure is a challenge to the
court’s subject matter jurisdiction. See FED. R. CIV. P.
12(b)(1). “Federal courts are courts of limited jurisdiction,” and it is “presumed that a cause lies outside this
limited jurisdiction.” Kokkonen v. Guardian Life Ins. of
Am., 511 U.S. 375, 377 (1994). The party invoking the
jurisdiction of the federal court bears the burden of establishing that the court has the authority to grant the
relief requested. Id.
A challenge pursuant to Rule 12(b)(1) may be facial or factual. See White v. Lee, 227 F.3d 1214, 1242
(9th Cir. 2000). In a facial attack, the jurisdictional
challenge is confined to the allegations pled in the
3

The Tribal Defendants also moved to strike the Declaration
of Tim Gill, which JW Gaming provided in opposition, on the
grounds that it is responsive only to their 12(b)(6) motions, under
which it is improper to consider evidence beyond the pleadings.
Mot. to Strike [Dkt. No. 23]. Motions to strike are generally
viewed with disfavor. If the evidence provided is moderately relevant, it can be included. I find this declaration relevant to challenge the Tribal Defendants’ 12(b)(1) argument that this matter
is merely an intra-tribal dispute, specifically the allegation that
JW Gaming is a “proxy.” See Mot. to Dismiss 16. The motion to
strike is DENIED.

App. 9
complaint. See Wolfe v. Strankman, 392 F.3d 358, 362
(9th Cir. 2004). The challenger asserts that the allegations in the complaint are insufficient “on their face” to
invoke federal jurisdiction. See Safe Air Safe Air [sic]
for Everyone v. Meyer, 373 F.3d 1035, 1039 (9th Cir.
2004). To resolve this challenge, the court assumes that
the allegations in the complaint are true and draws all
reasonable inference in favor of the party opposing dismissal. See Wolfe, 392 F.3d at 362.
II.

RULE 12(b)(6) MOTION TO DISMISS

Under Federal Rule of Civil Procedure 12(b)(6), a
district court must dismiss a complaint if it fails to
state a claim upon which relief can be granted. FED. R.
CIV. P. 12(b)(6). To survive a 12(b)(6) motion, the plaintiff must allege “enough facts to state a claim to relief
that is plausible on its face.” Bell Atl. Corp. v. Twombly,
550 U.S. 544, 556 (2007). A claim is facially plausible
when the plaintiff pleads facts that “allow the court to
draw the reasonable inference that the defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (citation omitted). There must be
“more than a sheer possibility that a defendant has
acted unlawfully.” Id. While courts do not require
“heightened fact pleading of specifics,” a plaintiff must
allege facts sufficient to “raise a right to relief above
the speculative level.” Twombly, 550 U.S. at 555, 570.
In deciding whether the plaintiff has stated a
claim upon which relief can be granted, the court accepts the plaintiff ’s allegations as true and draws all

App. 10
reasonable inferences in favor of the plaintiff. Usher v.
City of Los Angeles, 828 F.2d 556, 561 (9th Cir. 1987).
However, the court is not required to accept as true
“allegations that are merely conclusory, unwarranted
deductions of fact, or unreasonable inferences.” In re
Gilead Scis. Sec. Litig., 536 F.3d 1049, 1055 (9th Cir.
2008). If the court dismisses the complaint, it “should
grant leave to amend even if no request to amend the
pleading was made, unless it determines that the
pleading could not possibly be cured by the allegation
of other facts.” Lopez v. Smith, 203 F.3d 1122, 1127 (9th
Cir. 2000).
DISCUSSION
I.

RULE 12(b)(1) MOTIONS

The Tribal Defendants move to dismiss the fraud
and RICO claims on sovereign immunity grounds and
the fraud and RICO claims on intra-tribal dispute
grounds. The Tribal Defendants, the Canales Defendants, and John Tang move to dismiss the RICO claims
on standing grounds.
A.

Tribal Defendants Not Entitled to Sovereign
Immunity

As sovereigns, Indian Tribes are generally immune from suit. Lewis v. Clarke, 137 S. Ct. 1285, 1288
(2017). Tribal officers sued in an official capacity share
that immunity, but it does not always extend to tribal
employees sued in their individual capacities. See id.
Even when a tribal employee is sued for actions taken

App. 11
within the scope of her employment, a personal suit
can proceed unless the court determines that “the sovereign is the real party in interest.” Id. at 1290–91.
Sovereign immunity bars individual-capacity suits
when “the remedy sought is truly against the sovereign.” Id. at 1290.
The Tribal Defendants argue that JW Gaming’s
suit primarily focuses on contractual recovery for alleged breach of the Note. Mot. to Dismiss 10. Because
the Tribe, not its representatives, was party to the contract, it is the real party in interest. See id. JW Gaming
counters that it is suing the tribal employees in their
individual capacities for their own fraudulent conduct
and that it asserts no claims of vicarious liability.
Oppo. to Mot. to Dismiss 10.
The Supreme Court allowed a personal-capacity
suit against a tribal employee who was acting within
the scope of his employment because a judgment would
not “operate against the [t]ribe” but was “simply a suit
against [the employee] to recover for his personal actions.” Lewis, 137 S. Ct. at 1291. The Court rejected the
tribe’s argument that the indemnification clause in the
employment contract should permit the application of
sovereign immunity. Id. at 1192. Instead, “[t]he critical
inquiry [was] who may be legally bound by the court’s
adverse judgment, not who [would] ultimately pick up
the tab.” Id. at 1192–93.
Applying Lewis to the facts alleged here, I conclude that this suit is against the Tribal Defendants in
their individual capacities and that the Tribe is not the

App. 12
real party in interest. JW Gaming alleges that the individuals themselves engaged in fraud and that it suffered damages as a result. Oppo. to Mot. to Dismiss 10.
In the event of an adverse judgment, the individual defendants—not the Tribe—will be bound. See Lewis, 137
S. Ct. at 1192–93.
B.

JW Gaming Has Standing

The Tribal Defendants, the Canales Defendants,
and John Tang argue that JW Gaming lacks standing
to pursue its RICO claims because it cannot show that
their activities proximately caused their injuries. Mot.
to Dismiss 12. The alleged injury resulted from breach
of the Note rather than the alleged wire fraud or
money laundering. Mot. to Dismiss 13–14.
To establish standing to sue under RICO, a party
must show proximate cause: “some direct relation between the injury asserted and the injurious conduct alleged.” Holmes v. Sec. Inv’r Prot. Corp., 503 U.S. 258,
268 (1992). This requirement helps to “limit a person’s
responsibility for the consequences of that person’s
own acts.” Id.
In Anza, the Supreme Court held that a plaintiff
failed to show proximate cause when the direct victim
of the alleged racketeering was the state, not the plaintiff. Anza v. Ideal Steel Supply Corp., 547 U.S. 451, 458
(2006). The plaintiff alleged that the defendants defrauded the state tax authority and then used those
saved funds to decrease their prices, thus causing the
plaintiff ’s sales losses. Id. The Court noted that the

App. 13
asserted harms were caused by “a set of actions (offering lower prices) entirely distinct from the alleged
RICO violation (defrauding the State).” Id. The court
identified a “second discontinuity” because both the
lower prices and the lost sales could have had other,
independent causes. Id. at 459.
In Platten, the First Circuit held that plaintiffs
failed to show proximate cause because they did not
allege reliance on the defendant’s misrepresentations.
Platten v. HG Bermuda Exempted Ltd., 437 F.3d 118,
132 (1st Cir. 2006). In that case, plaintiffs had entered
into an employment agreement to become part of a
consulting partnership. Id. at 123–24. Upon leaving
the partnership and joining other consulting groups,
they were denied their full partnership shares. Id. at
124–25. They alleged that the defendant had misrepresented its interpretation of the non-competition
clause as part of a scheme to withhold distributions.
Id. at 125. But because plaintiffs had not alleged that
they relied on defendants’ statements—instead they
had signed the agreements as a condition of employment—defendants’ fraud could not have caused their
injuries. Id. at 132.
Here, JW Gaming properly alleged proximate
cause between its injury and the racketeering activity.
Defendants’ attenuation arguments are unpersuasive.
They assert that the Tribe’s failure to repay the Note,
not prior fraudulent activities, caused the alleged injury. But unlike Patten, where plaintiffs would have
signed the employment agreement anyway, here there
is evidence that the defendants’ misrepresentations

App. 14
directly contributed to JW Gaming’s decision to invest
in the Casino Project. Throughout early negotiations,
there were repeated references to the Canales Group
investment, which creates the necessary direct relationship. Only years later did the Tribe and JW Gaming
enter into the Note, after fraudulent misrepresentations, investment, and misappropriation of funds had
already occurred.
I find that JW Gaming properly alleges proximate
cause and thus has standing to sue under RICO.
C.

The Intra-Tribal Dispute Doctrine Does Not
Apply

The Tribal Defendants argue that the court lacks
subject matter over this action because it was brought
as a proxy for an internal tribal dispute over the
leadership’s decisions.
Indian tribes have the power to write and enforce
their own laws governing internal matters. Santa
Clara Pueblo v. Martinez, 436 U.S. 49, 55 (1978). Out of
respect for tribal sovereignty, federal courts lack subject matter jurisdiction over disputes that are properly
resolved in the internal forum, including, for example,
membership and adoption. See id. at 71; Fisher v. Dist.
Court of Sixteenth Judicial Dist. of Montana, in & for
Rosebud Cty., 424 U.S. 382, 383, 387–88 (1976). This
doctrine prevents the federal government from taking
actions that would “unsettle a tribal government’s
ability to maintain authority.” Santa Clara, 436 U.S.
at 60. It applies to cases that “present a genuine and

App. 15
non-frivolous question of tribal law,” and not when there
is a “mere suggestion” of such a dispute. Miccosukee
Tribe of Indians of Fla. v. Cypress, 814 F.3d 1202, 1209
(11th Cir. 2015).
The Tribal Defendants argue that this dispute lies
not with JW Gaming but with disgruntled members of
the Tribe. Mot. to Dismiss 16. They allege that JW
Gaming “serves as a proxy for this fight,” which is really a “disagreement with the tribal leadership’s exercise of their power,” as evidenced by the complaint’s
request for appointment of a receiver. Id. I find that
there is subject matter jurisdiction over this action because a judgment by this court would not interfere
with the Tribe’s ability to self-govern. It is more than
merely a dispute between members about internal affairs because it involves plausible allegations of fraud
perpetrated against a non-tribal entity. Neither the
fact that Tribe members are involved nor the unsupported allegations about JW Gaming’s motivation for
filing suit brings this action under the intra-tribal dispute doctrine. The Tribal Defendants’ concerns over
the appointment of a receiver are properly addressed
much later in the litigation.
II.

RULE 12(b)(6) MOTIONS

The Tribal Defendants, the Canales Defendants,
and John Tang move to dismiss the fraud claims on the
grounds that they lack the required particularity and
the RICO claims on the grounds that JW Gaming did
not sufficiently plead the required elements.

App. 16
A.

Fraud Pleaded with Particularity

The defendants argue that JW Gaming’s fraud
pleadings lack particularity because they do not allege
when, how much, and at whose direction the loans
were converted to personal use. Mot. to Dismiss 17. JW
Gaming counters by pointing to two promissory notes,
falsified accounting with amounts, emails with falsified documents attached, and testimony from another
suit that affirms their falsity. Oppo. to Mot. to Dismiss
15.
Rule 9(b) of the Federal Rules of Civil Procedure
requires plaintiffs to plead fraud with particularity.
FED. R. CIV. P. 9(b). The complaint must identify “the
circumstances constituting fraud so that the defendant
can prepare an adequate answer from the allegations.”
Bosse v. Crowell Collier & MacMillan, 565 F.2d 393,
397 (9th Cir. 1973). The information should include
“the time, place, and specific content of the false representations as well as the identities of the parties to the
misrepresentation.” Schreiber Distrib. Co. v. Serv-Well
Furniture Co., 806 F.2d 1393, 1401 (9th Cir. 1986).
While allegations of specific falsities by each defendant
are not necessary, the plaintiff must identify each one’s
role in the scheme. Swartz v. KPMG LLP, 476 F.3d 756,
764–65 (9th Cir. 2007).
I find that JW Gaming pleaded fraud with the particularity Rule 9(b) requires, including naming the
roles particular individuals played. It states the identities of the defendants who were involved in early negotiations and who created and presented it with an

App. 17
allegedly fraudulent promissory note in January 2009.
Compl. ¶¶ 305, 307, 311, 490, 494. It states the identities of the defendants who created and presented them
with the allegedly falsified Accounting Report in November 2011, including names of individuals who were
part of email communications. Id. ¶¶ 328–29, 334. It
provides a detailed breakdown of the amounts stated
in the Accounting Report and compares them to
amounts provided during Forster-Gill’s litigation with
defendants. Id. ¶¶ 341–48. Throughout the complaint,
JW Gaming names specific roles that each defendant
played in the alleged scheme.
Contrary to defendants’ argument, JW Gaming
also specifically identifies their conversion of loan
money to personal use. It alleges that two defendants
were the only names on bank accounts where loan
checks were deposited, that some checks went directly
to individual defendants, that one defendant’s partner
received $95,000 of the loan proceeds, that $400,000
went to an organization over which two have ownership interests, and that $1 million was paid to other
individuals. See id.; Compl. ¶¶ 16–23, 116–17, 170,
174, 555, Ex. 17.
B.

Elements of RICO Sufficiently Pleaded

The defendants argue that JW Gaming’s complaint does not state a plausible claim for relief under
the RICO statute. Mot. to Dismiss 19. The elements of
a RICO claim are: (i) the conduct of (ii) an enterprise
that affects interstate commerce (iii) through a pattern

App. 18
(iv) of racketeering activity or collection of unlawful
debt. 18 U.S.C. § 1962(c); Eclectic Props. E., LLC v.
Marcus & Millichap Co., 751 F.3d 990, 997 (9th Cir.
2014).
i.

Predicate Acts

The defendants argue that JW Gaming has not
sufficiently alleged predicate acts supporting its RICO
claim. Mot. to Dismiss 21. JW Gaming concedes that
its complaint does not properly plead bank fraud because none of the allegedly false statements were communicated to financial institutions. See Oppo. to Mot.
to Dismiss 18 n. 14; Loughrin v. United States, 134
S. Ct. 2384, 2394 (2014). I find that JW Gaming
properly pleads wire fraud and money laundering.
a. Wire Fraud
Wire fraud includes “any scheme to deprive another
of money or property by means of false or fraudulent
pretenses, representations, or promises.” Carpenter v.
United States, 484 U.S. 19, 27 (1987). Claims under 18
U.S.C. section 1343 require three elements: (i) the formation of a scheme to defraud; (ii) the use of the mails
or wires in furtherance of that scheme; and (iii) the
specific intent to defraud. Eclectic Props. E., LLC v.
Marcus & Millichap Co., 751 F.3d 990, 997 (9th Cir.
2014). A plaintiff satisfies the specific intent requirement by pleading the alleged scheme in detail. Best
Deals on TV, Inc. v. Naveed, No. C 07-1610 SBA, 2007
WL 2825652, at *10 (N.D. Cal. Sept. 26, 2007).

App. 19
JW Gaming states a claim for wire fraud. It asserts with great detail that defendants were part of a
coordinated scheme to induce it to invest $5,380,000
in the Casino Project. The complaint provides dates,
excerpts from email correspondence, and amounts of
transactions. JW Gaming alleges that the misrepresentations began at the beginning and continued until
the end of its dealings with the defendants. The detailed scheme it lays out is enough to clear the specific
intent hurdle at the pleading stage.
b. Money Laundering
Claims of money laundering under 18 U.S.C. section 1957 require four elements: (i) the defendant
knowingly engaged in a monetary transaction; (ii) he
knew the transaction involved criminal property; (iii)
the property’s value exceeded $10,000; and (iv) the
property was derived from a specified unlawful activity. United States v. Rogers, 321 F.3d 1226, 1229 (9th
Cir. 2003).
The defendants challenge this predicate act only
on the basis that JW Gaming did not plead a “specific
unlawful activity.” As a court in this district held, misappropriated funds from a business can be considered
“proceeds of some form of unlawful activity” even if the
business itself was not engaged in unlawful activity.
Best Deals, 2007 WL 2825652, at *8. Here, JW Gaming
alleges that defendants misappropriated funds meant
for the Casino Project and used them for individual
purposes. It states a claim for money laundering.

App. 20
ii. Pattern
A pattern is more than “two isolated acts of racketeering activity.” Sedima, S.P.R.L. v. Imrex Co., 473
U.S. 479, 496 n. 14 (1985). Instead, the events must
have overlapping goals, outcomes, people, or methods
and show a “threat of continuing activity.” Id. at 496
n. 14, 528. A pattern does not require multiple schemes,
and so, “if a defendant commits two or more predicate
acts that are not isolated events, are separate in time,
and are in furtherance of a single criminal scheme,
then RICO’s pattern requirement is satisfied.” Sun
Sav. & Loan Ass’n v. Dierdorff, 825 F.2d 187, 193 (9th
Cir. 1987).
JW Gaming’s complaint alleges facts that show a
pattern. It alleges two or more predicate acts as detailed above. The events are not isolated but share
common actors (the defendants), a common victim
(JW Gaming), and a common purpose (to defraud JW
Gaming and to conceal that fraud). The events are
separate in time, occurring between 2008 and 2012.
As alleged, fraud imbued the earliest interactions between JW Gaming and the defendants and continued
for years. Contrary to the defendants’ arguments, JW
Gaming need not show more than one scheme to show
a pattern. See Mot. to Dismiss 20–21; Sun Sav. &
Loan Ass’n v. Dierdorff, 825 F.2d 187, 193 (9th Cir.
1987).

App. 21
C.

The Tribal Entity Defendants Are Proper
Parties to the Contract Claim

The Tribal Entities argue that the contract claim
against them should be dismissed because only the
Tribe is a party to the 2012 Note. JW Gaming counters
by noting that the Gaming Authority is expressly included as a party to the contract and is bound by its
terms. In addition, the Note defines the Gaming Authority with reference to its “successors and assigns,”
which JW Gaming argues includes the Gaming Commission, the Business Board, and the Pinoleville Economic Development Commission. Defendants did not
counter this assertion in their reply. JW Gaming states
a claim as to the Tribal Entity Defendants.
III. INTERLOCUTORY APPEAL
JW Gaming asks me to certify as frivolous the
Tribal Defendants’ likely appeal of my denial of the
tribal sovereign immunity defense. Supp. Brief [Dkt.
No. 53] 1. The Tribal Defendants oppose. Response
[Dkt. No. 54] 3, 8.
When a district court denies “a substantial claim
of absolute immunity,” that order is appealable before
final judgment. Mitchell v. Forsyth, 472 U.S. 511, 525
(1985). Such an appeal automatically divests the
court of jurisdiction pending its resolution. Chuman v.
Wright, 960 F.2d 104, 105 (9th Cir. 1992). If a district
court certifies that an appeal would be frivolous or has
been waived, it can maintain jurisdiction and proceed
to trial. Id. “ ‘An appeal is frivolous if the results are

App. 22
obvious, or the arguments of error are wholly without
merit.’ ” Todd v. LaMarque, No. C 03-3995-SBA, 2008
WL 205591, at *2 (N.D. Cal. Jan. 24, 2008) (quoting
In re George, 322 F.3d 586, 591 (9th Cir. 2003)).
JW Gaming acknowledges that no district court
has certified as frivolous an appeal based on tribal sovereign immunity. Supp. Brief 4 n. 4. It nonetheless asks
that I apply Chuman here because rather than acting
for the benefit of the Tribe, the individual defendants
committed fraud that in fact hurt the Tribe. Id. at 9. As
such, there is no way to view the Tribe as the real party
in interest. Id. at 6.
I cannot agree. Although JW Gaming sues the defendants in their individual capacities, they were acting in their roles as members and leaders of the Tribe
during the course of their allegedly fraudulent dealings with JW Gaming. This case is not so clear-cut that
an appeal would be frivolous. I decline JW Gaming’s
request to certify it as such.4
IV. DISCOVERY
JW Gaming asked that I address discovery in this
order. As noted above, this court will be divested of
4

Because I decline to certify the appeal as frivolous, there is
no need to address the Tribal Defendants’ argument that the
plaintiff ’s request is premature and must await actual filing of
the appeal. Response 3–4; see Kendrick v. Cty. of San Diego, No.
15CV2615, 2018 WL 3361354, at *1 (S.D. Cal. July 10, 2018) (addressing a request for Chuman certification made after the appeal
had been filed).

App. 23
jurisdiction in the event that the Tribal Defendants
file an appeal of this denial of the sovereign immunity
defense. I will address a schedule for discovery at the
Case Management Conference on November 13, 2018.
CONCLUSION
For the foregoing reasons, the motions to dismiss
are DENIED and defendants shall answer within
twenty days of the date of this Order. The motion to
strike is also DENIED.
IT IS SO ORDERED.
Dated: October 5, 2018
/s/ William H. Orrick
William H. Orrick
United States District Judge

